AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No.
•X
PATRICIA RODRIGUEZ,
Petitioner,
v.
LPP MORTGAGE LTD., LP.
Respondent.
X
STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Mariana Braylovskiy, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 26th day of August, 2019,1 served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:
Lindsey E. Kress
Locke Lord, LLP
44 Montgomery Street, Suite 4100
San Francisco, CA 94104
lkress@,lockelord.com
David Gates:
1200 Palomino Rd.
Santa Barbara, CA 93105
archangel2008@activist.com
by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail.

That on the same date as above, I sent to this Court forty copies and 1 un-bound copy of
the within Petition for a Writ of Certiorari and three hundred dollar filing fee check
through the Overnight Next Day Federal Express, postage prepaid.
All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 26th day of August, 2019.

Sworn to and subscribed before me this 26th day of August, 2019.

Mas Melendez
Notary Pub ic State of New York
No. 24-4795 661
Qualified infKings County
Commission Expires Aug. 31, 2021

# 289956

0

COUNSEL PRESS

(800)274-3321 *(800)359-6859
www.counselpress.com

